No.

IN THE
SUPREME COURT OF THE UNITED STATES

Michael J. Besoyan

— PETITIONER

(Your Name)
VS.

Sacramento countv et.al.

— RESPONDENT (S)

PROOF OF SERVICE
Michael J. Besoyan as writen below*

/

do swear or declare that on this date,
20
, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
*

Defendants were not served by the district court, the incorrect list of defendants was issued to the
Ninth Cirvut of appeals. There is no urie to serve. 4 years wasted in the federal
court sysyem although my real and personal private property with all my
Constitutional Rights was usurped by the defendants.
/ await further procedural clarification.

I declare under penalty of perjury that the foregoing is true and correct,
originally this page was sent ,3rd party without signiture
, 202fi_
Executed on August, 21
* per clerks letter dated 6-30-2020

iflichad U

an

(Signature)

ril^lO-OP

; Vk V»S1*5 Pf corn** ■

• w ;

